                 UNCLASSIFIED

         United States Department of State
       and the Broadcasting Board of Governors
            Office of Inspector General




   Memorandum Report

Consular Affairs Information Security Program




    Report Number IT-A-02-04, September 2002




                     Decontrolled




                 UNCLASSIFIED
MEMORANDUM

TO:              CA - Mr. George C. Lannon, Acting

FROM:            OIG - Clark Kent Ervin

SUBJECT:         Consular Affairs Information Security Program (Report No. IT-A-02-04)


        Due to increased risks to information assurance1 in today’s environment, ensuring that
security requirements are met in visa and passport processes is essential to national security. The
Bureau of Consular Affairs (CA) has responsibility for issuing or refusing visas and passports for
the entry of people to the United States.
        In response to public and congressional concern about the Department of State’s
(Department) ability safely to manage and process consular activities, the Office of Inspector
General (OIG) conducted a review of CA’s information security program. The specific
objectives of this review were to determine (1) whether CA’s information systems security
program complies with statutory and regulatory guidance and (2) whether overseas missions
where CA systems operate are following sound information security practices.
       This memorandum provides information concerning the first objective. Issues related to
the second objective concern mission security management practices, which are not specific to
CA. OIG has addressed these issues in its evaluation of the Department’s information security
program under the FY 2002 Government Information Security Reform Act (GISRA)2 review.3

CA’s Comprehensive Approach

        CA has developed a comprehensive approach to addressing information security risks. In
accordance with GISRA, Clinger-Cohen (P.L. 104-106), and Office of Management and Budget
(OMB) Circular A-130, CA provides an overview of its approach to information security in its
1999 Modernized Systems Information Systems Security Plan. The plan establishes
organizational authorities and responsibilities to ensure that specified security requirements are
met in its client-server environment, currently in production domestically and overseas. The
plan also describes:

    •   CA systems and their operational status;
    •   the system environment and related software;

1
  Information Assurance is defined as the grounds for confidence that the other four security goals (integrity,
availability, confidentiality, and accountability) have been adequately met.
2
  Public Law 106-398, Div. A, Title X, Subtitle G.
3
  Government Information Security Reform Act, Information Security Program Evaluation (Report Number IT/A –
02 – 06, September 2002).
   •   the sensitivity of information handled;
   •   controls for risk management, security, and rules of behavior;
   •   operational controls for personal security, contingency planning, hardware and system
       software maintenance, integrity, and incident response capability; and,
   •   technical controls for identification and authentication mechanisms, and logical access.

        The Consular Systems Division (CSD) oversees the development and dissemination of
policies and procedures, ensures the development and presentation of user and contractor
awareness sessions, conducts both vulnerability and risk assessments, and inspects and spot
checks systems and desktops to confirm that consular sections are in compliance with required
security configurations. After an application is deployed to an embassy or consulate, the specific
mission takes ownership of applications and the CSD provides 24-hour maintenance and
assistance via the deployment teams and the CA Support Desk.

         During FY 2002, in coordination with the Bureau of Diplomatic Security, CSD is
undergoing a vulnerability assessment of its critical systems and applications. CA management
is conducting this initiative to provide assurance that consular information is protected to a level
that is commensurate with its sensitivity. The organization conducting the assessment will
review and test the applications, database systems, associated network infrastructure controlled
or managed by CA, and other controls that are supposed to prevent unauthorized access.

System Survey Results

       OIG developed a data collection tool to obtain general information about CA’s
information security program. The purpose of the tool was to identify the applications used by
CA and to obtain information on Information Technology (IT) security plans, assessments, and
determinations that are required by OMB guidance, prior information security laws, and also by
GISRA. Specifically, the tool included requests for information on the following:

   •   Risk Assessments: The identification and analysis of possible risks in meeting the
       agency’s objectives, which forms a basis for managing the risks identified and
       implementing deterrents.
   •   Security level determinations: Assessments that identify the specific security levels that
       should be maintained for IT systems hardware, software, and the information maintained
       or processed on systems.
   •   System Security Plan: A written plan that clearly describes the entity’s security program
       and the policies and procedures that support it. The plan and related policies should
       cover all major systems and facilities and outline the duties of those who are responsible
       for overseeing security as well as those who own, use, or rely on the entity’s computer
       resources.
   •   Certification and Accreditation: Attests that an information system meets documented
       security requirements and will continue to maintain the approved security posture
       throughout its life cycle.
   •   Tests of security controls: Assessments of controls designed to protect computer
       facilities, computer systems, and data stored on computer systems or transmitted via
       computer networks from loss, misuse, or unauthorized access.


                                                                                                       2
        In its response, CA identified an inventory of 36 systems. Of these, officials within the
CSD reported that nearly 70 percent of CA systems are operating with a risk assessment. In
addition, almost 50 percent of the CA systems are operating with a security level determination
and an overall security plan, and have had their security plans tested. Only four systems have
been certified and accredited or provided an Interim Authority to Operate (IATO). According to
CSD management, they are actively planning, prioritizing and working toward bringing each of
their active systems in line with the information security statutes and OMB guidance. See
Attachment 1 for complete survey results.

       Certification and Accreditation
        CA has taken appropriate steps to develop and implement a robust information security
program; however, a key element of such a program, certification and accreditation, continues to
lag. The certification and accreditation process is designed to certify that information systems
meet documented security requirements and will continue to maintain the accredited security
posture throughout each system’s life cycle. OIG found that only two of CA’s 36 systems have
been certified and accredited, and two have been granted an IATO. As a result, CA managers
lack sufficient information concerning the extent to which their systems are protected against
fraud, illegal practices, or mission failure. OIG found that CA management had prepared and
submitted the necessary documentation for the certification for eight of 36 CA systems.
However, the certifying and accrediting agents for the Department have been unable to complete
the process.
        The Department’s certification and accreditation deficiencies were raised in the OIG’s
GISRA report in September 2002. Although the Under Secretary for Management has provided
support and guidance to the Department’s CIO, the Bureau for Diplomatic Security (certification
agent) and the Bureau for Information Resource Management (accreditation agent) have not been
able to get the process on track as of the date of this memorandum. CA officials told OIG that
they are dissatisfied with the process because they continue to submit documented packages for
required testing and approval, but must operate their systems without certification and
accreditation.

       Survey of CA Personnel
        Finally, in coordination with CA headquarters, OIG conducted a global survey to
measure consular staffs’ perception of IT and information security issues. The survey instrument
was nonscientific and the data received was subjective. In addition, OIG did not test a random
sample of CA personnel nor conduct a validity study on the responses received. However, OIG
believes that the results, 993 responses from 124 different missions, provide a useful indicator of
information security awareness among CA personnel. For example, 61 percent of respondents
said they had received a security briefing in the past 12 months. For complete survey results see
Attachment 2.

      Please contact Frank Deffer, Acting Assistant Inspector General, Office of Information
Technology at (703) 284-2715, or email at defferf@state.gov, if you have any questions or
comments.




                                                                                                  3
                                                                                                       Attachment 1

                                      Consular Affairs Survey Results:
                                 Key Information Systems Security Elements

                                                                 Applications                                    Applications
                                                 Applications                    Applications    Applications
                                                                 with Security                                   with Tested
ConsularApplications                              with Risk                      with Security   Certified and
                                                                     Level                                        Security
                                                 Assessments                         Plans        Accredited
                                                                Determinations                                    Controls

American Citizen Services                             X               X               X                -                X
Automated Cash Register System                        X               X               X                -                X
Action Request System (Domestic) (ARS Remedy-
                                                      -               -                -               -                -
Help Desk)
Ad Hoc Reporting Template                             -               -               X               -                 -
Backup Name Check                                    X                X                -              -                 X
Consular Consolidated Database                       **               X               X               -                 X
Consular Lookout and Support System – Enhanced       X                X               **              -                 X
Crisis Report Information System                     X                -                -              -                 -
Consular Shared Tables                               X                X               X               -                 X
Consular Workload Statistics System                   -               -                -              -                 -
Data Share                                           X                X               **              -                 X
Diversity Immigrant Visa Information System          X                -                -              -                 -
Independent Name Check                               X                -                -              -                 -
INS Allocation Management System                     X                X               X             IATO                X
International Parental Child Abduction               X                X               X             IATO                X
Immigrant Visa System                                X                X               X               X                 X
Immigrant Visa Allocation Management System           -               X                -              -                 X
Immigrant Visa Information System                    X                -               X               -                 -
Immigrant Visa/Diversity Visa System                 X                X               X               -                 X
Knowledge Management System                           -               -                -              -                 -
Logistics Management System (IRF Inventory
                                                      -               -                -               -                -
System)
Nonimmigrant Visa System                              X               X               X               X                 X
Nonimmigrant Visa Ticketing System                    X               X               -               -                 X
Nonimmigrant Visa Identification Detection
                                                      X               -                -               -                -
Encryption Name Tag System
Parser System                                         -               -               X                -                -
Passport Service System                               -               X               -                -                X
Passport Records Imaging Systems                      -               -               -                -                -
Remote Data Entry System – Client                     X               -               -                -                -
Remote Data Entry System – Server                     X               -               -                -                -
Remote Outreach Enrollment System                     X               -               -                -                -
Refusal Screening and Verification Process            X               -               -                -                -
Structured Query Interface System                     X               -               -                -                -
Telecommunications Manager System                     X               -               X                -                -
Travel Document Issuance System                       X               X               -                -                X
Tracking of Applicants (VISTA)                        -               X               -                -                X
Visa Waiver                                           -               -               -                -                -
Totals                                           25 or 69.4%     17 or 47%        15 or 42%       4 or 11%       17 or 47%
         ** CA’s System Security Authorization Agreement (SSAA) in draft, near completion




                                                                                                                    4
                                                                                                             Attachment 2


                                          OIG Global Survey of CA Staff

In coordination with the CA headquarters, OIG conducted a global survey designed to determine
consular staffs’ perception of IT and information security issues. OIG received 993 responses
from 124 embassies and consulates. It is important to note that the survey instrument was not
scientific and the data received was subjective. In addition, OIG did not test a random sample of
CA personnel nor did OIG attempt to validate the responses. Information on the OIG survey
approach and a list of acronyms is provided at the end of this section.

Statistical Description of Respondents

OIG asked all survey respondents to include their
position title on their responses. According to                                            Positional Responses
CA, there are approximately 950 actual overseas                                                 1%
American consular positions.       Of the 993                                               1%        6%
responses that OIG received, 392 responses (41                                             4%
percent) were from the American consular officer
                                                                                    13 %
population.

According to CA, there are also approximately
2,700 Foreign Service National (FSN) and Third                                                                      58%

Country National (TCN) positions. Of the 993                                        17 %

responses that OIG received, 595 responses (22
percent) were from the FSN/TCN population.
                                                                              FSN                           Junior FSO
                                                                              Senior FSO                    Consular Associate
OIG also asked all survey respondents to include                              Professional Associate        TCN
their mission. Identifying the mission allowed                                Other
OIG to calculate the consular section’s size4 and
regional bureau in a reliable and valid manner.
           Regional Responses                                                          Mission Size Responses
                                                                                                             11%
                       4%


                                                                                      33%
                                    24%

    4 1%

                                                                                                                       33%




                                   17 %
                                                                                                     23%

             4%
                     10 %
                                                                                            Small            Medium
       AF           EAP            EUR                                                      Large            Extra Large
       NEA          SA             WHA

4
 Mission size was based on a CA-generated formula that factors in the number of visa and passport cases, turnover of personnel,
physical hardships at posts, level of expertise along with other general factors.


                                                                                                                              5
                                                                                                           Attachment 2
Information Technology Security Briefings
                                                                             Security Briefing Attendance
OIG asked survey participants to say whether they
had attended at least one IT information security
briefing within the last 12 months. Of the responses
received, 39 percent said that they had not been                            39%
briefed within the last year. This is significant
because training and awareness are key elements in                                                         61%
reducing risk and enhancing the Department’s risk-
based management approach for IT security.
                                                              Have attended an annual security briefing
More specifically, the greatest range of responses to
                                                              Have not attended an annual security briefing
this question was evident in the regional bureaus.
For example, 78 percent of respondents in the Bureau of South Asian Affairs (SA) said that they
had received at least one security briefing within the past 12 months. In contrast, only 47 percent
of the respondents from the Bureau of European and Eurasian Affairs (EUR) said they that they
had received a security briefing within the past 12 months.

         Regional Responses Indicating No Training


  60%                      53%
         49%                        47%
  50%
  40%             37%
                                                       34%
  30%
                                             22%
  20%
  10%
   0%
          AF     EAP      EUR       NEA       SA      WHA

          Number of responses that said attendance at least one security briefing in the last 12 months:
                                     Yes: 384                    No: 609




                                                                                                                  6
                                                                                                     Attachment 2
CA Support Desk

The CA Support Desk, staffed 24 hours a day, is
the primary channel through which CSD                                  Respondents that Strongly Agreed they
provides maintenance and support to CA                                 knew when and how to contact the CA
                                                                                  Support Desk
applications.                                                            46%
                                                                50%

OIG asked respondents to say whether they                       40%
strongly agreed, agreed, disagreed, or strongly                 30%                 25%
                                                                                              19%        18%
disagreed with the suggestion that they knew                    20%
when and how to contact the CA Support Desk.                    10%
                                                                0%
Almost 24 percent of the respondents strongly
                                                            Small   M edium    Large   Extra Large
agreed that they knew when and how to contact              M ission  M ission M ission  M ission
the CA Support Desk. More broadly, over 70
percent of all respondents said that they either
strongly agreed or agreed that they knew when and how to contact the CA support Desk.

Respondents from smaller missions were more likely strongly to agree. For example, 46 percent
of the respondents from small missions submitted a strongly agree response. In contrast, only 18
                                                          percent of respondents from extra
          Positions that Strongly Agreed and Agreed       large missions said that they strongly
                                                          agreed.
 80%
                       70%
 70%
                                                  60%
                                                                      OIG also saw a significant range
                58%
 60%                                                                  within positions.      For example,
        48%
 50%                             46%                                  almost 70 percent of senior Foreign
                                         40%              39%
 40%                                                    36%           Service Officers (FSO) said that they
 30%
                        29%
                                24%
                                                                      strongly agreed that they knew when
              23%
                                                20%                   and how to contact the CA Support
 20%   13%
                                                                      Desk. In contrast, only 13 percent of
 10%
                                        0%                            the FSNs said knowledge of when
 0%                                                                   and how to contact the Support Desk.
        FSN   Junior   Senior   Cons    Prof.   T CN    Other
               FSO      FSO     Assoc   Assoc

                    Strongly Agree        Agree

    Number of responses that said that they had knowledge of when and how to contact the CA Support Desk:
             Strongly Agree: 234; Agree: 459; Disagree: 158; Strongly Disagree: 30; NA: 106




                                                                                                               7
                                                                                                              Attachment 2
 Consular Shared Tables
                                                                     Positional awareness of CST monitoring
 Survey participants were asked whether
 they were aware of their consular                     120%
 section’s Consular Shared Tables (CST)                100%
                                                                                99%
 manager actively assigning and                                        79%
                                                                                         84%
                                                                                                                    77%
 monitoring user IDs and roles within the               80%
                                                              64%
 Consular Shared Tables.         Of the                                                                     60%
                                                        60%
 responses received, 73 percent said that
 they were aware that the CST were                      40%
 regularly monitored. OIG also asked                                                               20%
                                                                                                     20%     20%
                                                        20%
 respondents how often CST tables were                         5%       1%       0%        0%                        2%
 monitored. According to 47 percent of                   0%
 senior FSOs, the tables are monitored                         FSN     Junior   Senior     Cons     Prof.    T CN    Other
                                                                        FSO      FSO       Assoc    Assoc
 every month, and 41 percent said that
 they were monitored every six months.
                                                                          Yes         No       Don't Know


Number of responses that said someone in their consular section regularly monitored user roles and identifications in CST:
                                        Yes: 716; No: 32; Don’t Know: 239



 End-of-Day Reports                                                 Positional awareness of End-of-Day Reports

                                                       100%
 OIG asked survey participants whether                                          90%
                                                        90%                                                 80%
 anyone in their mission’s consular                     80% 70%
                                                                       77%               78%
 section consistently monitored and                                                                                 68%
                                                        70%                                           60%
 reviewed end of day reports relevant to                60%
 their mission. In response, almost 90                  50%                                        40%
 percent of senior FSOs said that end of                40%
                                                                 25%                                                   27%
 day reports were reviewed.                             30%              20%                 19%              20%
                                                        20%
                                                               5%       3%        6%
                                                                                 4%                                  3%
                                                        10%                                3%       0%       0%
                                                         0%
                                                               FSN     Junior   Senior     Cons     Prof.    T CN    Other
                                                                        FSO      FSO       Assoc    Assoc


                                                                          Yes         No       Don't Know
              Number of responses that said someone in their consular section used end of day Reports:
                                      Yes: 730; No: 45; Don’t Know: 212




                                                                                                                             8
                                                                                                                         Attachment 2

                                                                           Positions that S trongly Agreed and Agreed that
Working Relationship between CA and IM
                                                                           there was a good relationship between CA and
                                                                                        system administrators
OIG asked survey participants to say whether
they thought that their mission’s consular                     90%
                                                                                                                  80%
managers had a good working relationship                       80%
with the systems support personnel. Overall,                   70%                          64%
over 80 percent of total respondents either                                           58%
                                                                                                                              60%
                                                               60%        53%
strongly agreed or agreed that their consular
section and systems support personnel had a                    50%
                                                                                                      41%
                                                                                                                                       43%
                                                                                                                                     39%
good working relationship. OIG found the                       40%                              33%
                                                                                                        35%
                                                                         29%
largest range in answers in positions. For                     30%               26%
example, 64 percent of senior FSOs strongly                                                                      20%      20%
                                                               20%
agreed that there was a good working
                                                               10%
relationship between their section and the
system administration. However, only 26                         0%
percent of the junior FSOs shared that                                    FSN    Junior     Senior    Cons       Prof.       T CN     Other
                                                                                  FSO        FSO      Assoc      Assoc
opinion.
                                                                                          Strongly Agree               Agree


    Number of responses indicating a good working relationship between CA staff and system administrators:
         Strongly Agree: 334; Agree: 494; Disagree: 21; Strongly Disagree: 5; Don’t Know: 132

Cables
                                                               Respondents indicating that they receive cable traffic
CSD said that they were interested in
knowing whether their missions
                                                                                                      54%
receive cable traffic, such as                          FSN         3%
                                                                                              42%
monthly cables or information on                                                                                                90%
                                                  Junior FSO        4%
new software releases.                                               7%
                                                                                                                                     97%
                                                 Senior FSO      2%
                                                                1%
When OIG asked all survey                                                                                     65%
                                                 Con. Assoc.        0%
participants whether they regularly                                                       35%
received cable traffic, 67 percent                                                                                       80%
                                                Prof. Assoc.        0%
                                                                                20%
said that they were aware of cable                                                                                       80%
                                                       T CN         0%
traffic       from     headquarters.                                            20%
According to the responses, the                                                                             63%
                                                      Other         4%
                                                                                        34%
smaller the mission, the more likely
the respondents were to be aware of                            0%          20%            40%         60%              80%          100%

cable traffic.
                                                                                      Don't Know            No          Yes

                Number of responses that said that their mission regularly received cable traffic:
                                  Yes: 659; No: 31; Don’t Know: 296




                                                                                                                                      9
                                                                                                   Attachment 2

Protection of Information Technology Passwords and Consular Information

OIG asked survey participants whether they understand that their IT password(s) are not to be
shared with other persons. In
                                                      Password Protection    Information Protection
addition, OIG asked survey
participants     whether       they
                                                                                         78%
understand       that      consular   Strongly Agree                                       81%
information is protected by the
Privacy Act and that it is                     Agree
                                                               21%
                                                             19%
everyone’s responsibility to protect
these records from release to                          0%
persons outside of the Department.          Disagree   0%
Almost 100 percent of respondents
                                                       0%
said that they either strongly Strongly Disagree       0%
agreed or agreed that they
understand the importance of                        0%       25%          50%       75%          100%
protecting both their passwords
and consular information.

       Number of responses indicating that employees understand the importance of password protection:
          Strongly Agree: 665; Agree: 155; Disagree: 3; Strongly Disagree: 1; Don’t Know: 132


      Number of responses indicating that employees understand the importance of information protection:
         Strongly Agree: 644; Agree: 175; Disagree: 4; Strongly Disagree: 1; Don’t Know: 132


Information Technology Security
Priorities                                                                       88.4%
                                                      90%     84.0%
Finally, OIG asked survey participants to             80%
rank their perception of IT security’s                70%
priority in the mission as a whole and the            60%
consular section. In both scenarios, 98               50%
                                                                                                   High Priority
percent of participants said that they                40%                                          Medium Priority
thought that IT information security was a            30%                                          Low Priority
medium or high priority.                              20%             18%
                                                                   14%
                                                                                     10%
                                                      10%
                                                                                        2%
                                                        0%
                                                             IT Information     IT Information
                                                             Security at Post   Security in CA


                    Number of responses ranking the priority of IT security in the mission:
                                   High: 830; Medium: 139; Low: 18

                Number of responses ranking the priority of IT security in the consular section:
                                    High: 873; Medium: 99; Low: 15




                                                                                                            10
                                                                                     Attachment 2
Survey Approach

The survey was made available on the CA Intranet site from May 25 through July 11, 2002. A
cable was distributed to all diplomatic missions and consulates inviting consular staff to
participate in the survey. For more information on this survey, please call Heather Rogers at
(703) 284-2732 or send an e-mail to rogersh@state.gov.



Acronym List for OIG Global Survey to CA Staff

AF            Bureau of African Affairs
CA            Bureau of Consular Affairs
CSD           Bureau of Consular Affairs, Consular Systems Division
CST           Consular Shared Tables
EAP           Bureau of East Asian & Pacific Affairs
EUR           Bureau of European and Eurasian Affairs
FSN           Foreign Service National
FSO           Foreign Service Officer
IT            Information Technology
NEA           Bureau of Near Eastern Affairs
OIG           Office of Inspector General
SA            Bureau of South Asian Affairs
TCN           Third Country National
WHA           Bureau of Western Hemisphere Affairs




                                                                                          11
